No. 20-637
In the

Supreme Court of the United States
DARRELL HEMPHILL,
Petitioner,
v.
NEW YORK,
Respondent.
On Writ of Certiorari to the
Court of A ppeals of New York

BRIEF OF ASSOCIATION OF CRIMINAL
DEFENSE LAWYERS OF NEW JERSEY AS
AMICUS CURIAE FOR THE PETITIONER
Gary S. Stein
Counsel of Record
Lisa M. Buckley
Pashman Stein Walder
Hayden P.C.
Court Plaza South, East Wing
21 Main Street, Suite 200
Hackensack, NJ 07601
(201) 488-8200
gstein@pashmanstein.com
Attorneys for Amicus Curiae
305593

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE  . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
FACTUAL BACKGROUND  . . . . . . . . . . . . . . . . . . . . . . 4
PROCEDURAL BACKGROUND . . . . . . . . . . . . . . . . . . 8
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Berger v. California,
393 U.S. 314 (1969)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Brookhart v. Janis,
384 U.S. 1 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Bullcoming v. New Mexico,
564 U.S. 647 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Chambers v. Mississippi,
410 U.S. 284 (1973)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Crawford v. Washington,
541 U.S. 36 (2004) . . . . . . . . . . . . . . . . . . . . . . . . passim
Freeman v. State,
765 S.E.2d 631 (Ga. Ct. App. 2014) . . . . . . . . . . . . . . 18
Johnson v. Zerbst,
304 U.S. 458 (1938) . . . . . . . . . . . . . . . . . . . . . . . .  13, 17
Lee v. Illinois,
476 U.S. 530 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . 3, 15
Malloy v. Hogan,
378 U.S 1 (1964) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Mattox v. United States,
156 U.S. 237 (1895) . . . . . . . . . . . . . . . . . . . . . . . . 13, 15

iii
Cited Authorities
Page
Mattox v. United States,
156 U.S. 237 (1895) . . . . . . . . . . . . . . . . . . . . . . . . 13, 15
Melendez-Diaz v. Massachusetts,
557 U.S. 305 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Michigan v. Bryant,
562 U.S. 344 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Ohio v. Clark,
567 U.S. 237 (2015)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Ohio v. Roberts,
448 U.S. 56 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
People v. Fisher,
154 P.3d 455 (Kan. 2007)  . . . . . . . . . . . . . . . . . . . . . . 19
People v. Hardy,
418 P.3d 309 (Cal. 2018)  . . . . . . . . . . . . . . . . . . . . . . . 18
People v. Reid,
19 N.Y.3d 382 (2012) . . . . . . . . . . . . . . . . . . . . .  9, 16, 18
People v. Rogers,
317 P.3d 1280 (Colo. App. 2012) . . . . . . . . . . . . . . . . . 19
People v. Vines,
251 P.3d 943 (Cal. 2011), as modified (Aug. 10,
2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iv
Cited Authorities
Page
Pointer v. Texas,
380 U.S. 400 (1965) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
State v. Prasertphong,
114 P.3d 828 (Ariz. 2005)  . . . . . . . . . . . . . . . . . . 18, 19
State v. Selalla,
744 N.W.2d 802 (S.D. 2008)  . . . . . . . . . . . . . . . . . 18, 20
State v. White,
920 A.2d 1216 (N.H. 2007) . . . . . . . . . . . . . . . . . . . . . 18
U.S. v. Acosta,
475 F.3d 677 (5th Cir. 2007) . . . . . . . . . . . . . . . . . . . . 18
U.S. v. Cromer,
389 F.3d 662 (6th Cir. 2004) . . . . . . . . . . . . . . . . .  17, 18
U.S. v. Holmes,
620 F.3d 836 (8th Cir. 2010) . . . . . . . . . . . . . . . . .  17, 19
U.S. v. Moussaoui,
382 F.3d 453 (4th 2004) . . . . . . . . . . . . . . . . . . . . . . . . 18
U.S. v. Pugh,
405 F.3d 390 (6th Cir. 2010) . . . . . . . . . . . . . . . . . . 17-18
Statutes and Other Authorities
U.S. Const. Amend. VI  . . . . . . . . . . . . . . . . . . . . . . . . . . 10

v
Cited Authorities
Page
Fed. R. Evid. 106  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 20
J. Stephen, History of the Criminal Law of England
326 (1883) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

1
INTEREST OF AMICUS CURIAE
Proposed amicus curiae Association of Criminal
Defense Lawyers of New Jersey (ACDL-NJ) is a nonprofit corporation organized under the laws of New Jersey
to, among other purposes, “protect and insure by rule
of law, those individual rights guaranteed by the New
Jersey and United States Constitutions; to encourage
cooperation among lawyers engaged in the furtherance of
such objectives through educational programs and other
assistance; and through such cooperation, education and
assistance, to promote justice and the common good.”1
Founded in 1985, ACDL-NJ has more than 500 members
across New Jersey.
ACDL-NJ files numerous amicus briefs each year in
the federal and state courts, seeking to provide amicus
assistance in cases that present issues of broad importance
to criminal defendants, criminal defense lawyers, and the
criminal justice system as a whole. New Jersey’s Supreme
Court has found that ACDL-NJ has the special interest
and expertise to serve as an amicus curiae in numerous
cases throughout the years.
ACDL-NJ submits this brief in support of Petitioner
because the issue presented in this case—whether a
criminal defendant “opens the door” to the admission of
testimonial hearsay by allegedly creating a misleading
1. Petitioner filed a blanket consent to the filing of amicus
briefs and Respondent consented to ACDL-NJ’s filing of an amicus
brief. No counsel for any party has authored this brief in whole or in
part, and no person or entity, other than amicus and their counsel,
made a monetary contribution intended to fund the preparation
or submission of this brief.

2
impression-- is of critical importance to criminal defense
attorneys and their clients.
Thus, ACDL-NJ has the requisite interest to
participate as amicus curiae and believes that its
participation will be helpful to the Court.
SUMMARY OF ARGUMENT
The New York Court of Appeals’ decision that Petitioner
opened the door to the admission of testimonial hearsay
to correct a misleading impression he created violates
this Court’s edict in Crawford v. Washington: “Where
testimonial statements are at issue, the only indicium of
reliability sufficient to satisfy constitutional demands is
confrontation.” 541 U.S. 36, 68-69 (2004). Petitioner had
no opportunity to cross examine his accuser, and the trial
court’s admission of the accuser’s plea allocution at trial
robbed Petitioner of his fundamental constitutional right
under the Confrontation Clause of the Sixth Amendment.
The Sixth Amendment right of a defendant to confront
witnesses against her is not absolute. A defendant may
waive her constitutional rights, but “opening the door”
by creating a misleading impression does not constitute
a waiver. It is not based upon knowing and intentional
conduct by the defendant, but upon the perception of a
trial court.
Moreover, the dual inquiries whether a defendant
created a misleading impression, and what testimonial
hearsay is necessary to correct it, are intolerably subjective,
and therefore unpredictable. The “unpardonable vice” of
New York’s test, however, is “its demonstrated capacity to

3
admit core testimonial statements that the Confrontation
Clause plainly meant to exclude.” Id. at 63. The truthfinding function of the Confrontation Clause “is uniquely
threatened when an accomplice’s confession is sought to
be introduced against a criminal defendant without the
benefit of cross-examination.” Lee v. Illinois, 476 U.S.
530, 530 (1986).
To resolve the split in the Federal Circuit Courts, 2
amicus respectfully urges this Court to adopt a rule
that, under the Sixth Amendment, testimonial hearsay is
admissible only where defendant waives her constitutional
right by introducing a portion of a testimonial hearsay
statement as a strategy or tactic. The prosecutor then
may admit the full statement of the same declarant on
the same topic.
In that context, the waiver analysis is not subjective.
The court need not determine whether a defendant created
a misleading impression, or what testimonial hearsay is
necessary to correct it. The waiver of a constitutional
right must be intentional and knowing, yet a defendant
can create a “misleading impression” without intending
to. Further, one court may conclude that the defendant
created a misleading impression, while another court may
not. To avoid the unpredictability inherent in a subjective
analysis, a waiver should require an intentional act by
the defendant based upon a strategic trial decision to
introduce only part of a testimonial hearsay statement.
In response, the prosecution may admit the rest of the
declarant’s statement on the same topic.

2. See, infra, note 8.

4
Moreover, public policy supports the approach
advocated by amicus insofar as it balances the sanctity of
a defendant’s confrontation right against the legitimate
concern about the fairness of permitting a defendant to use
only that testimonial hearsay she likes, while prohibiting
the prosecution from admitting the rest of the declarant’s
statement. It is also fair to defendants because they
cannot fall into the open-the-door trap. A waiver requires
intentional conduct by the defendant, and is not based upon
a court’s impression.
FACTUAL BACKGROUND
On Easter Sunday, in April 2006, Ronnell Gilliam
(Gilliam) and a companion were involved in a street fight
with a group of several people. 3 Pet. App. 8a-9a. After
the fight broke up, a man believed to be associated with
Gilliam drove by and opened fire, killing a 2-year old
child in a passing minivan. Ibid. Eyewitnesses identified
Gilliam as one of the men involved in the fight. Id. at 9a.
Eyewitnesses identified Gilliam’s companion as a thin
black man wearing a blue shirt or sweater. Id. at 3a. The
murder weapon was a 9 mm handgun. Id. at 23.
The police suspected that it was Gilliam’s best friend,
Nicholas Morris (Morris), who was the shooter. Id. at 3a.
Within hours of the shooting, police searched Morris’s
home and found a 9 mm cartridge, the type of ammunition
used in the shooting, and ammunition for a .357 revolver.
Id. at 9a. Morris was arrested and taken into custody.
3. The facts are based upon the parties’ filings with this
Court because the case file is not available from the New York
courts.

5
Ibid. When police searched Gilliam’s apartment that night
they found a blue sweater in a plastic bag. Id. at 10a-11a.
The officer who opened the bag said it smelled of burnt
gunpowder residue. Id. at 11a.
Gilliam knew that night that the police were looking for
him, and not wanting to be found, Gilliam and his cousin,
defendant Darrell Hemphill (Hemphill or Petitioner),
decided to flee together to North Carolina. Id. at 12a.
While on the run, Mr. Hemphill told Gilliam that Morris
went on television and pointed to Gilliam as the shooter.
Ibid. Mr. Hemphill urged Gilliam to go back to New York
and tell police that Morris was the shooter. Ibid. Within
days of the murder, Gilliam surrendered to the police in
New York, and in an interview with detectives, fingered
Morris as the shooter. Ibid. Gilliam told detectives that
he disposed of the murder weapon, at which point he was
arrested and charged with hindering prosecution and
tampering with evidence. Ibid. Gilliam pled guilty to the
charges.
The detectives allowed Gilliam to speak with Morris
from jail. Morris denied identifying Gilliam as the shooter.
Pet. App. 4a (Fahey, J., dissenting); J.A. 175. Apparently,
Gilliam believed Morris because, in a second interview
with detectives, Gilliam recanted his statement against
Morris and told police that Mr. Hemphill was the shooter.
Pet. App. 12a. Gilliam told detectives that after the
shooting, he met up with Morris and Mr. Hemphill at his
apartment, where Mr. Hemphill took off the blue sweater.
Id. at 11a. Gilliam said that Mr. Hemphill told him to get
rid of the sweater and the guns-- a .357 caliber revolver
that Gilliam said belonged to Morris, and a 9 mm handgun
that he said belonged to Mr. Hemphill. Ibid. Gilliam got

6
rid of the guns, but he forgot about the blue sweater. Id.
at 12a.
The investigators did not act on Gilliam’s new
statement. Relying on what they considered the strength
of their evidence against him, the state indicted Morris
for the child’s murder and possession of a 9 mm handgun.
Id. at 9a, J.A. 5-17. During Morris’s trial, the results of a
DNA analysis of the blue sweater came in and Morris was
not a match. Ibid. The trial judge declared a mistrial. Ibid.
Rather than retry him, prosecutors offered Morris a
deal: if he agreed to plead guilty to possession of a firearm
at the scene of the shooting, the state would request that
the murder charge be dropped with prejudice, and that
Morris, who by then already had been incarcerated for
two years, immediately be released from prison. Id. at
9a, 16a. Morris agreed to take the plea. Id. at 9a. The
prosecutors then filed a new information charging Morris
with possession of a .357 revolver at the scene, as opposed
to a 9 mm handgun, as originally charged. Id. at 9a. In the
course of pleading guilty to the revised charge, Morris
admitted to possession of a .357 revolver at the scene and
was released from jail. Ibid.
Several years later in 2011, police determined that
the DNA on the blue sweater found in Gilliam’s apartment
matched Mr. Hemphill. Id. at 9a-10a. In 2013, Mr. Hemphill
was arrested and indicted. Id. at 10a. In 2015, he was tried
for second-degree murder. Ibid. The prosecution’s new
theory was that Gilliam had acted with two companions,
Morris and Mr. Hemphill, and that Mr. Hemphill was the
shooter. J.A. 356. Mr. Hemphill’s defense was that Gilliam
only had one companion, Morris, and that Morris was the
shooter. Pet. App. 16a-17a.

7
Mr. Hemphill did not testify at his trial. Gilliam
testified as part of his plea agreement. Id. at 4a. He
testified that the 9 mm handgun belonged to Mr. Hemphill.
Id. at 11a. During the trial, defense counsel elicited
testimony that on the night of the shooting, police found
a 9 mm cartridge on Morris’s nightstand. J.A. 132-34.
The prosecution then sought to rebut that testimony by
introducing Morris’s statement in his plea allocution that
he had only a .357 revolver at the scene of the shooting.
Id. at 138-41.
Morris did not testify at Mr. Hemphill’s trial and his
plea allocution is testimonial hearsay evidence.4 The trial
4. In Crawford v Washington, the Court discussed when a
statement is “testimonial,” but did not purport to identify every
possible scenario. 541 U.S. 36, 68 (2004). The Court readily concluded,
however, that a statement given to police in connection with a criminal
case undoubtedly is testimonial. In this case, Morris’s statements in
his plea allocution are testimonial. Id. at 53. A testimonial statement
is hearsay only where, as here, it is admitted for the truth of the
matter. See also, Ohio v. Clark, 567 U.S. 237, 246-49 (2015) (holding
that Confrontation Clause did not bar introduction of statements
child made to preschool teacher regarding abuse committed by
the defendant because it occurred in the context of an ongoing
emergency involving suspected child abuse); Bullcoming v. New
Mexico, 564 U.S. 647, 663 (2011) (concluding that Confrontation
Clause did not permit prosecution to introduce forensic laboratory
report containing a testimonial certification made to prove a fact at a
criminal trial through in-court testimony of analyst who did not sign
the certification or personally perform or observe the performance
of the test reported in certification); Michigan v. Bryant, 562 U.S.
344, 358 (2011) (ruling that, when “the primary purpose of an
interrogation is to respond to an ‘ongoing emergency,’ its purpose
is not to create a record for trial and thus is not within the scope of
the [Confrontation] Clause.”); Melendez-Diaz v. Massachusetts, 557
U.S. 305, 311 (2009) (holding that forensic laboratory certificates

8
court admitted Morris’s statement allegedly to correct
a misleading impression that defense counsel created by
suggesting that Morris was the shooter. Id. at 184-85. Mr.
Hemphill thus opened the door to the admission of Morris’s
allocution. The prosecution relied on Morris’s allocution
to argue that, because the murder weapon was a 9 mm
handgun and Morris had the .357 revolver, Morris could
not have been the shooter. Id. at 355-56.
Mr. Hemphill was convicted of second degree murder.
Pet. App. 1a.
PROCEDURAL BACKGROUND
On appeal, Mr. Hemphill argued that the trial court’s
admission of part of Morris’s plea allocution violated his
Sixth Amendment right to confront his accuser. Id. at
16a-17a. The Appellate Division rejected the argument.
It held that by eliciting testimony that on the night of
the shooting police found a 9 mm cartridge on Morris’s
nightstand, defense counsel “created a misleading
impression that Morris possessed a 9 millimeter handgun,
which was consistent with the type used in the murder,
and introduction of the plea allocution was reasonably
necessary to correct that misleading impression.” 5 Id.
at 17a.

asserting that substance found in defendant›s car was cocaine
were testimonial and could be admitted only through preparers
to avoid violating defendant›s rights under Confrontation Clause).
5. Justice Manzanet-Daniels dissented, but not on Sixth
Amendment grounds. She found the state’s evidence to be
insufficient to support his conviction.

9
In a short opinion issued on June 25, 2020, the New
York Court of Appeals summarily affirmed the Appellate
Division’s decision, concluding that the trial court did
not abuse its discretion by admitting evidence that the
allegedly culpable third party, Morris, pled guilty to
possessing a firearm other than the murder weapon. Pet.
App. 1a-3a.
The Appellate Division’s decision, on which the New
York Court of Appeals relied, based its ruling primarily
on People v. Reid, 19 N.Y.3d 382 (2012). Pet. App. 16a-17a.
That case held that the defendant opened the door to
the admission of testimonial hearsay and that that
evidence was reasonably necessary to correct defendant’s
misleading questioning. Reid, 19 N.Y3d at 388. Reid
involved a deadly shooting that occurred during a botched
robbery attempt. Id. at 385. The day after the murder,
Reid told an acquaintance that he had killed someone the
night before. Ibid. Reid identified Joseph and McFarland
as participating in the shooting. Ibid. Some time later, the
victim’s friend contacted police and identified Joseph as
a suspect. Ibid. Joseph’s confession to police implicated
Reid in the murder. Ibid.
The defense theory at trial was that the police
investigation of the murder was inadequate. Id. at 386.
Reid’s acquaintance, who testified for the state about Reid’s
confessed involvement, also implicated a third participant,
McFarland. Id. at 385-86. On cross examination, the
acquaintance agreed with defense counsel that, although
he had informed police about McFarland, McFarland was
never arrested Ibid. The defense also called as a witness a
federal agent who testified that he, too, had been informed
during his investigation that McFarland was involved.

10
Id. at 386. On cross examination of the federal agent,
the prosecutor was permitted to ask, over the defense’s
objection, if he, in fact, had heard eyewitness testimony
confirming that McFarland was not at the murder scene.
Ibid. The agent agreed. Ibid.
Reid was found guilty of second degree murder.
Id. at 387. On appeal, the Appellate Division reversed,
finding that defendant had been denied the right to
confront witnesses. Ibid. The Court of Appeals reversed
the Appellate Division, concluding that the defendant had
opened the door to the admission of the co-conspirator’s
confession by creating a misleading impression that
McFarland’s involvement was ignored by police. Id. at
387-89.
ARGUMENT
The Sixth A mendment’s Confrontation Clause
provides that, “[i]n all criminal prosecutions, the
accused shall enjoy the right . . . to be confronted with
the witnesses against him.” U.S. Const. amend. VI. The
Court has held that this “bedrock procedural guarantee,”
Crawford v. Washington, supra, 541 U.S. at 42, is “to
be enforced against the States under the Fourteenth
Amendment according to the same standards that protect
those personal rights against federal encroachment.”
Pointer v. Texas, 380 U.S. 400, 406 (1965) (quoting Malloy
v. Hogan, 378 U.S 1, 10 (1964)).
The Cour t def initively interpreted the Si xth
Amendment right to confrontation in Crawford, holding
that “[w]here testimonial statements are at issue, the only
indicium of reliability sufficient to satisfy constitutional

11
demands is the one the Constitution actually prescribes:
confrontation.” Id. at 68-69. The Court’s pronouncement
is unequivocal. It leaves no room for the admission of
testimonial hearsay because a defendant “opened the
door” by “creating a misleading impression.” Indeed,
“[l]eaving the regulation of out-of-court statements to the
law of evidence would render the Confrontation Clause
powerless to prevent even the most flagrant inquisitorial
practices.” Id. at 51. Crawford compels the reversal of the
New York Court of Appeals’ Decision.
In Crawford, defendant was tried for assault and
attempted murder. Id. at 40. His wife witnessed the attack,
but he prevented her from testifying at trial by invoking
the marital privilege. Id. at 39-40. The prosecution
sought to introduce the wife’s recorded statement made
during police interrogation as evidence that the attack
was not in self-defense. Id. at 40. Defendant objected
on Sixth Amendment grounds. Ibid. Relying on Ohio v.
Roberts, 448 U.S. 56 (1980), the trial court admitted the
wife’s testimonial statement because it bears “indicia of
reliability,” a hearsay exception, or bears “particularized
guarantees of trustworthiness.” Crawford, 541 U.S. at
40 (quoting Roberts, 448 U.S. at 66). The appellate court
ultimately upheld the conviction.
In Crawford, the Court examined the founders’ intent
in constitutionalizing the right to confront one’s accusers
and concluded that the Roberts test departed from
centuries-old principles by admitting testimonial hearsay
statements “upon a mere finding of reliability.” 541 U.S.
at 60. The Crawford Court reversed the defendant’s
conviction and overruled Roberts, in part, holding that the
admission of the wife’s testimonial hearsay violated the

12
Confrontation Clause because there was no opportunity
for cross examination. Id. at 68-69.
Justice Scalia painstakingly traced the root of
the concept of confronting one’s accusers back to Roman
times, but showed that the founders’ source was the
English common-law, which had a “tradition . . . of live
testimony in court subject to adversarial testing.” Id. at 43.
But England also had a civil-law practice that permitted
officials to examine suspects and witnesses before trial
and read the statements in court in lieu of live testimony-a practice which “occasioned frequent demands by the
prisoner to have his `accusers,’ i.e. the witnesses against
him, brought before him face to face.” Ibid. (quoting 1 J.
Stephen, History of the Criminal Law of England 326
(1883)). “[N]otorious instances of civil-law examination
occurred in the great political trials of the 16th and 17th
centuries.” Id. at 44.
Justice Scalia singled out the trial of Sir Walter
Raleigh for treason as one such notorious instance that
was at the forefront of the founders’ mind in ratifying the
Confrontation Clause. Ibid. Raleigh’s alleged accomplice,
Lord Cobham, implicated Raleigh in an examination
before the Crown’s Privy Council and a letter. Ibid. At
Raleigh’s trial, the examination and the letter were read
to the jury. Ibid. Raleigh demanded that the judges “[c]all
my accuser before my face,” but the judges refused to call
Cobham to appear. Ibid. (quoting Raleigh’s Case, 2 How.
St. Tr. 1, 15–16, 24 (1603)). Despite Raleigh’s protestations
that he was being tried “by the Spanish Inquisition,”
the jury convicted him, and Raleigh was sentenced to
death. Ibid. (citing 2 How. St. Tr., at 15). “It was these
practices that the Crown deployed in notorious treason

13
cases like Raleigh’s . . . that English law’s assertion of a
right to confrontation was meant to prohibit; and that the
founding-era rhetoric decried.” Id. at 50. Through a series
of statutory and judicial reforms, English law developed “a
right of confrontation that limited these abuses.” Id. at 44.
“Raleigh’s trial has long been thought a paradigmatic
confrontation violation.” Crawford, 541 U.S. at 52. In
Revolutionary times, a number of state declarations
of rights guaranteed a right of confrontation. Id. at 48
(citations omitted). The proposed Federal Constitution
did not, prompting passionate objections. Id. at 48-49. The
first Congress’ responded by including the Confrontation
Clause in the proposal that became the Sixth Amendment.
Id. at 49; See Johnson v. Zerbst, 304 U.S. 458, 462 (1938)
(“Omitted from the Constitution as originally adopted,
provisions of this and other Amendments were submitted
by the first Congress … as essential barriers against
arbitrary or unjust deprivation of human rights.”).
The Confrontation Clause envisions:
a personal examination and cross-examination
of the witness, in which the accused has an
opportunity, not only of testing the recollection
and sifting the conscience of the witness, but of
compelling him to stand face to face with the
jury in order that they may look at him, and
judge by his demeanor upon the stand and the
manner in which he gives his testimony whether
he is worthy of belief.
Mattox v. United States, 156 U.S. 237, 242 (1895).

14
Those means of testing the accuracy and credibility of
an accuser’s testimony are so important that the absence
of proper confrontation at trial “calls into question the
ultimate ‘integrity of the fact-finding process.’” Chambers
v. Mississippi, 410 U.S. 284, 295 (1973) (quoting Berger
v. California, 393 U.S. 314, 315 (1969)). Thus, “the
Framers would not have allowed admission of testimonial
statements of a witness who did not appear at trial unless
he was unavailable to testify, and the defendant had had
a prior opportunity for cross-examination.” Crawford,
541 U.S. at 53-54.
Criticizing Roberts’ “reliability” test, the Crawford
Court noted that “[w]here testimonial statements are
involved, we do not think the Framers meant to leave the
Sixth Amendment’s protection to the vagaries of the rules
of evidence, much less to amorphous notions of ‘reliability.’”
Id. at 61. The Confrontation Clause’s “ultimate goal is to
ensure reliability of evidence, but it is a procedural rather
than a substantive guarantee. It commands, not that
evidence be reliable, but that reliability be assessed in
a particular manner: by testing in the crucible of crossexamination.” Ibid.
The Crawford Court further found Roberts’ framework
to be unpredictable because “[w]hether a statement is
deemed reliable depends heavily on which factors the
judge considers and how much weight he accords each of
them.” Id. at 63. Moreover, “[r]eliability is an amorphous,
if not entirely subjective, concept.” Ibid. This “malleable
standard often fails to protect against paradigmatic
confrontation violations.” Id. at 60.
“The unpardonable vice of the Roberts test, however,
is not its unpredictability, but its demonstrated capacity to

15
admit core testimonial statements that the Confrontation
Clause plainly meant to exclude.” Id. at 63. So too here.
As the Court explained in Lee v. Illinois, supra, the
Court’s precedent is “premised on the basic understanding
that when one person accuses another of a crime under
circumstances in which the declarant stands to gain by
inculpating another, the accusation is presumptively
suspect and must be subjected to the scrutiny of crossexamination.” 476 U.S. at 541. The truth-finding function
of the Confrontation Clause “is uniquely threatened when
an accomplice’s confession is sought to be introduced
against a criminal defendant without the benefit of crossexamination.” Ibid.
The New York Court of Appeals’ decision is entirely at
odds with the Court’s dictate in Crawford. Morris’s plea
allocution admitted against Petitioner was not subject
to prior cross examination, and the “text of the Sixth
Amendment does not suggest any open-ended exceptions
from the confrontation requirement” other than “those
established at the time of the founding.” Id. at 54 (citing
Mattox v. United States,156 U.S. 237, 243 (1895)).6 Opening
the door to the admission of testimonial hearsay to correct
a “misleading impression” is a vague, amorphous and
unrecognized exception to the confrontation requirement.
The New York Court of Appeals’ decision undermines
the integrity of the fact-finding process and should be
reversed.
6. The Court previously acknowledged that two forms of
testimonial statements were admitted at common law even though
they were unconfronted, namely, dying declarations and forfeiture
by wrongdoing. Crawford, 541 U.S. at 56 n.6 (citing Mattox, supra,
156 U.S. at 243–244 (citation omitted).

16
Similar to the Roberts test, the New York Court
of Appeals test-- whether, and the extent to which a
defendant created a misleading impression, and if so,
what testimonial hearsay is necessary to correct it-- is
subjective and highly unpredictable. Petitioner’s counsel
asked a witness at trial whether it was true that, on the
night of the murder, police found a 9 mm cartridge on
Morris’s nightstand. The witness said it was true and in
fact it was true. By eliciting testimony that Morris had
possession of a 9 mm cartridge, defense counsel was not
offering evidence that Morris owned a 9mm handgun.
Therefore, Morris’s testimonial hearsay that he did not
own a 9 mm handgun clearly was inadmissible. There was
no “misleading impression” that required clarification.
Similarly, People v. Reid, supra, exemplifies the
subjectivity of the “misleading impression” analysis.
19 N.Y.3d at 388-39. There, defense counsel elicited
testimony that investigators “had received information”
that a third person was involved in the shooting, and that
he was never arrested. Id. at 386. The trial court found
that defense counsel created a “misleading impression”
about the third person’s participation, a completely
improper and subjective finding of fact encroaching on
the jury’s prerogative.
Concluding that defense counsel “opened the door
about McFarland being there,” however, the trial court
admitted testimonial hearsay from an eyewitness who
allegedly told a federal agent that the third person,
McFarland, was not there.7 Ibid. That highly irregular
7. The Court of Appeals’ opinion in Reid does not reveal
what defense counsel asked or said that created a misleading
impression.

17
and standardless determination by the trial court is
irreconcilable with the holding and rationale of Crawford,
which clearly rejected judicial determinations of reliability
as a substitute for the constitutional guarantee of
confrontation.
Like virtually every other constitutional right, a
defendant may waive her Sixth Amendment right to
confrontation. Yet, there is “a presumption against the
waiver of constitutional rights,” and for a waiver to be
effective, it must be clearly established that there was “an
intentional relinquishment or abandonment of a known
right or privilege.” Brookhart v. Janis, 384 U.S. 1, 4 (1966)
(holding that there is no waiver of Sixth Amendment
confrontation right where defendant’s counsel purported
to waive defendant’s right without defendant’s consent)
(quoting in part Johnson v. Zerbst, 304 U.S. 458, 464
(1938)).
A defendant does not waive her Sixth Amendment
right by opening the door to the admission of testimonial
hearsay by creating a “misleading impression” merely
because a court subjectively determines that defendant
created a misleading impression. See U.S. v. Holmes, 620
F.3d 836, 844 (8th Cir. 2010) (holding that defendant can
waive his right to confront witnesses if he opens the door,
but a waiver must be clear and intentional, and simply
asking questions on cross-examination does not constitute
a waiver); U.S. v. Cromer, 389 F.3d 662, 677-78, (6th
Cir. 2004) (finding that defendant opened door by asking
detective if an informant told her defendant’s nickname,
but admission of informant’s testimonial hearsay that
the man with the nickname had been involved with the
illegal drug activity, violated Sixth Amendment); U.S.

18
v. Pugh, 405 F.3d 390, 400 (6th Cir. 2010) (concluding
that defendant’s questions may have “opened the door,”
but “government overstepped constitutional bounds” by
admitting a witness’s positive identification of defendants
from crime scene pictures).
A majority of the courts that have considered the issue
have held that testimonial hearsay may be admitted only
where a defendant questions a witness about a portion
of a testimonial hearsay statement, in which case the
prosecutor may admit other portions of the statement
by the same declarant on the same topic. 8 Although the
8. Petitioner contends that federal and state courts are divided
into 3 camps on the issue whether, or under what circumstances,
criminal defendants open the door to the admission of evidence at
trial that otherwise would be barred by the Confrontation Clause.
According to Petitioner, three jurisdictions hold that a defendant
never forfeits the right of confrontation by presenting a defense at
trial. (Citing U.S. v. Cromer, 389 F.3d 662 (6th Cir. 2004); U.S. v.
Holmes, 620 F.3d 836 (8th Cir. 2010); Freeman v. State, 765 S.E.2d
631 (Ga. Ct. App. 2014)). Petitioner identifies five jurisdictions that
supposedly have adopted an intermediate position that when a
defendant introduces testimonial hearsay, he forfeits the right to
exclude other testimonial statements by the same declarant on the
same subject. (Citing U.S. v. Moussaoui, 382 F.3d 453 (4th 2004);
State v. Prasertphong, 114 P.3d 828 (Ariz. 2005); People v. Vines,
251 P.3d 943 (Cal. 2011), as modified (Aug. 10, 2011), overruled
by People v. Hardy, 418 P.3d 309 (Cal. 2018); State v. Selalla, 744
N.W.2d 802 (S.D. 2008)). Petitioner argues that three jurisdictions
hold that whenever a defendant creates a misleading impression at
trial, he forfeits the right to exclude responsive evidence otherwise
barred by the Confrontation Clause even if the defendant did not
introduce testimonial hearsay by the declarant whose statement the
prosecution seeks to introduce. (Citing U.S. v. Acosta, 475 F.3d 677
(5th Cir. 2007); People v. Reid, supra, 971 N.E.2d at 353; and State
v. White, 920 A.2d 1216 (N.H. 2007)).

19
“outcomes of the cases have been comparable, the same
cannot be said of [their] rationales.” Crawford, 541 U.S.
at 60.
Several of the courts that have addressed the issue
used a waiver analysis. See U.S. v. Holmes, supra, 620
F.3d at 842. See also People v. Rogers, 317 P.3d 1280,
1284 (Colo. App. 2012) (noting that defendant intentionally
opened the door to the Confrontation Clause violation
by her strategic trial decision to introduce the nontestifying driver’s hearsay statement); See also People
v. Fisher,154 P.3d 455, 482-83 (Kan. 2007) (observing
that discussion of defendant’s companion was first
initiated by defense counsel when questioning police
officer permitting prosecutor to introduce statement in
its entirety; defendant waives Sixth Amendment right to
confrontation when he opens an otherwise inadmissible
area of evidence; prosecution may then present evidence
in that “formerly forbidden sphere”).
Other courts have permitted the admission of
testimonial hearsay under the rule of completeness, an
evidentiary rule codified in Fed. R. Evid. 106, which
provides that “[i]f a party introduces all or part of a
writing or recorded statement, an adverse party may
require the introduction, at that time, of any other part--or
any other writing or recorded statement--that in fairness
ought to be considered at the same time.” See State v.
Prasertphong, 114 P.3d 828, 833 (Ariz. 2005) (holding that
under rule of completeness defendant had “forfeited his
Confrontation Clause right not to have [his codefendant’s]
entire statement admitted against him when he made the
tactical decision to introduce portions of the statement
that, standing alone, had the serious potential to mislead

20
the jury.”); State v. Selalla, 744 N.W.2d 802, 818 (S.D. 2008)
(concluding that defendant’s introduction of favorable
testimonial hearsay “would properly enable the state to
complete the picture by eliciting other evidence from the
rest of [the statement].”).
The language of Fed. R. Evid. 106 is broad. Where
a defendant makes the tactical decision to introduce
portions of a testimonial statement, on its face, Rule 106
does not limit an adverse party to introducing the entire
testimonial statement, but also permits the admission
of “any other writing or recorded statement.” What an
adverse party may introduce is bounded only by what a
court decides “in fairness ought to be considered at the
time.” Fed. R. Evid. 106. That “fairness” determination is
just as subjective as the intolerably subjective “misleading
impression” standard and, therefore, it should not apply in
the context of the Sixth Amendment. In other words, the
waiver standard advocated by amicus is narrower than
what Rule 106 may allow.
A m ic u s r e sp e c t f u l ly u r g e s t h at t he C ou r t
constitutionalize the standard that a defendant shall be
deemed to have waived her right to confront her accusers
at trial only where she makes the tactical decision to
introduce portions of a testimonial statement, but the
waiver should be limited to permit the adverse party to
admit only other portions, or the entirety, of the same
statement of the same declarant that relate to the same
topic. That test balances the sanctity of a defendant’s
confrontation right against the legitimate concern about
the fairness of permitting a defendant to use only that
testimonial hearsay she likes, while prohibiting the
prosecution from admitting the rest of the statement by

21
the declarant on the same topic. See Reid, 971 N.E.2d at
388 (expressing concern that defendants can use the Sixth
Amendment as a sword and a shield “revealing only those
details of a testimonial statement that are helpful to the
defense, while concealing from the jury other details that
would tend to explain the portions introduced and place
them in context.”).
CONCLUSION
Because his Sixth Amendment right of confrontation
was violated, Mr. Hemphill’s conviction should be reversed
and the matter remanded for a new trial.
Respectfully submitted,
Gary S. Stein
Counsel of Record
Lisa M. Buckley
Pashman Stein Walder
Hayden P.C.
Court Plaza South, East Wing
21 Main Street, Suite 200
Hackensack, NJ 07601
(201) 488-8200
gstein@pashmanstein.com
Attorneys for Amicus Curiae
Dated: June 29, 2021

